                              CLOSEOUT FOR M93040020




                                                     -   ---
 ethnic group membership on her successful ~ ~ ~ r n i n ograduate
                                                             r i t ~ fellowship application.
 The subject had indicated that she was a "Hispanic'of -descent               on her
 application. The program -tor       had been informed that the subject was ~a&asian.

       In response to OIG's request for information the subject provided documentation,
  including birth certificates, to prove that she was a Caucasian of both Hispanic and---
.-descent.

     Therefore, OIG determined that there was no substance to this allegation and closed the
 case.




 Staff Scientist, Oversight

 Concurrence:




 Senior Scientist, Office of Oversight                Assistant Inspector General for Oversight




 Montgomery K. Fisher
 Counsel to the Inspector General

 cc:    Assistant Inspector General for Oversight
        Inspector General
